   July 7, 2005




Defense Infrastructure
Medical Joint Cross-Service Group
Data Integrity and Internal Control
Processes for Base Realignment and
Closure 2005
(D-2005-089)




             Department of Defense
            Office of Inspector General
Quality              Integrity        Accountability
 Additional Copies
 To obtain additional copies of this audit report, visit the DoD Inspector General
 Home page at www.dodig.osd.mil/audit/reports or contact the Secondary Reports
 Distribution Unit, Audit Followup and Technical Support at (703) 604-8937 (DSN
 664-8937) or fax (703) 6034-8932.

 Suggestions for Audits

 To suggest ideas for or to request audits, contact Audit Followup and Technical
 Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932. Ideas and
 requests can also be mailed to:

                   ODIG-AUD (ATTN: AFTS Audit Suggestions)
                     Department of Defense Inspector General
                       400 Army Navy Drive (Room 801)
                           Arlington, VA 22202-4704

 Defense Hotline

 To report fraud, waste, or abuse, contact the Defense Hotline by calling
 (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
 writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
 identity of each writer and caller is fully protected.




Acronyms

AAA                  Army Audit Agency
BRAC                 Base Realignment and Closure
COBRA                Cost of Base Realignment Actions
DoD OIG              Department of Defense Office of Inspector General
ICP                  Internal Control Plan
IEC                  Infrastructure Executive Council
ISG                  Infrastructure Steering Group
JCSG                 Joint Cross-Service Group
JPAT 7               Joint Process Action Team Criterion Number 7
MJCSG                Medical Joint Cross-Service Group
OSD                  Office of the Secretary of Defense
SOP                  Standard Operating Procedure
                            INSPECTOR GENERAL
                           DEPARTMENT OF DEFENSE
                            400 ARMY NAVY DRIVE
                       ARLINGTON, VIRGINIA 22202-4704



                                                                            July 7,2005
MEMORANDUM FOR CHAIR, MEDICAL JOINT CROSS-SERVICE GROUP
SUBJECT: Report on Medical Joint Cross-Service Group Data Integrity and Internal
         Control Processes for Base Realignment and Closure 2005
         (Report NO. D-2005-089)

        We are providing this report for your information and use. We performed the
audit in response to a request h m the Under Secretary of Defense for Acquisition,
Technology, and Logistics. We considered comments h m the Medical Joint Cross-
Service Group on a draft of this report when preparing the finalreport. The complete text
of the comments is in the Management Comments section of the report.
        We appreciate the courtesies extended to the audit staff. Questions should be
directed to Mr. James A. O'Connell at (757) 872-4716 or Mr. Robert T. Briggs at (703)
604-8872. See Appendix C for the report distribution. The audit team members are listed
inside the back cover.
                               By direction of the Deputy Inspector General for Auditing:




                                  for Readiness and Logistics Support
                Department of Defense Office of Inspector General
Report No. D-2005-089                                                        July 7, 2005
(Project No. D2003-D000LF-0132.000)

              Medical Joint Cross-Service Group Data Integrity
                  and Internal Control Processes for Base
                       Realignment and Closure 2005

                                 Executive Summary

Who Should Read This Report and Why? Office of the Secretary of Defense
personnel, members of the Medical Joint Cross-Service Group, and anyone interested in
the Base Realignment and Closure (BRAC) process should read this report. The report
discusses the validity, integrity, and documentation of data used by the Medical Joint
Cross-Service Group for BRAC 2005.

Background. BRAC 2005 is the formal process outlined in Public Law 101-510,
“Defense Base Closure and Realignment Act of 1990,” as amended, under which the
Secretary of Defense may realign or close military installations inside the United States
and its territories. As part of BRAC 2005, the Under Secretary of Defense for
Acquisition, Technology, and Logistics issued “Transformation Through Base
Realignment and Closure (BRAC 2005) Policy Memorandum One—Policy,
Responsibilities, and Procedures,” April 16, 2003, which states that the Department of
Defense Office of Inspector General would review the accuracy of BRAC data and the
certification process. In addition, the Department of Defense Office of Inspector General
was responsible for validating that the appropriate authorities had certified the BRAC
data used by the Joint Cross-Service Groups for developing recommendations.

BRAC 2005 established procedures to provide a fair process for base realignments and
closures in the United States and its territories and was divided into the following data
calls–capacity analysis, supplemental capacity, military value, Cost of Base Realignment
Actions, Joint Process Action Team Criterion Number 7, and scenario specific. The
supplemental capacity, military value, Cost of Base Realignment Actions, and Joint
Process Action Team Criterion Number 7 data calls were collectively known as the
second data call. This report discusses the Medical Joint Cross-Service Group, one of
seven joint cross-service groups involved in the BRAC 2005 process.

The Surgeon General of the Air Force chaired the Medical Joint Cross-Service Group.
Principal members included the Deputy Assistant Secretary of Defense (Health Budgets
and Financial Policy), the Joint Staff Surgeon, the Surgeon General of the Navy, the
Deputy Surgeon General of the Army, and the Medical Officer of the Marine Corps. The
Medical Joint Cross-Service Group BRAC analyses were divided among three functional
areas: Education and Training; Healthcare Services; and Research, Development, and
Acquisition.

Results. We evaluated the Medical Joint Cross-Service Group use of certified data and
whether the Medical Joint Cross-Service Group had an adequate audit trail for capacity
analysis and military value analysis. We also evaluated the adequacy of the Medical
Joint Cross-Service Group audit trail for the input into the Cost of Base Realignment
Actions model and whether the Medical Joint Cross-Service Group complied with the
Office of the Secretary of Defense internal control plan and the Medical Joint Cross-
Service Group standard operating procedures.

The Medical Joint Cross-Service Group used certified data and data from authoritative
sources approved by the Infrastructure Steering Group and had developed an adequate
audit trail for its capacity analysis. In a draft of this report, sampling results indicated the
Medical Joint Cross-Service Group used certified data and data from authoritative
sources approved by the Infrastructure Steering Group for two of three functional areas
(Education and Training, and Healthcare Services) and was developing an audit trail for
its military value analysis. However, because of the number of errors or insufficient
supporting documentation for the initial sample, we could not predict that the third
functional area (Research, Development, and Acquisition) primarily used certified data in
its military value analysis and we believed the military value audit trail needed
improvement. Our reevaluation of additional supporting documentation for the initial
sample and validation of a second sample indicated the Research, Development, and
Acquisition functional area also used certified data and data from authoritative sources in
its military value analysis. Further, although the military value analysis is a complex
process that may require assistance and computer proficiency to follow, our review of
updated documentation indicated the Medical Joint Cross-Service Group developed an
adequate audit trail for its military value analysis. The Medical Joint Cross-Service
Group also had an adequate audit trail for the input into the Cost of Base Realignment
Actions model. In addition, the Medical Joint Cross-Service Group generally complied
with established internal control procedures from the Office of the Secretary of Defense
internal control plan and the Medical Joint Cross-Service Group standard operating
procedures. We believe the Medical Joint Cross-Service Group BRAC 2005 process has
generally been adequate and reliable. See the Finding section of the report for details of
the audit results. See Appendix A for a discussion of our review of the management
control program and prior audit coverage.

Management Comments. We provided a draft of this report on June 2, 2005. Although
no comments were required, the Chair, Medical Joint Cross-Service Group stated that the
Medical Joint Cross-Service Group worked diligently over the past two years to ensure
compliance with stringent OSD guidance on the use of certified data in the capture of
capacity analysis data from the field, and the conduct of its military value analysis. The
Chair also provided additional documentation to support the Research, Development, and
Acquisition functional area military value analysis including a memorandum certifying
the Army military value data, additional Army source data files, and Navy source data
files. See the Management Comments section for the complete text of the comments.




                                               ii
Table of Contents

Executive Summary                                                             i

Background                                                                    1

Objectives                                                                    5

Finding
     Medical Joint Cross-Service Group Data Integrity and Internal Control
       Processes for BRAC 2005                                                6

Appendixes
     A. Scope and Methodology                                                12
        Management Control Program Review                                    14
        Prior Coverage                                                       15
     B. Review of COBRA Model Input for Potential Candidate
          Recommendations                                                    16
     C. Report Distribution                                                  20

Management Comments
     Medical Joint Cross-Service Group                                       21
Background
    Base Realignment and Closure 2005. Public Law 101-510, “Defense Base
    Closure and Realignment Act of 1990,” as amended, establishes the procedures
    under which the Secretary of Defense may realign or close military installations
    inside the United States and its territories. Congress authorized a Base
    Realignment and Closure (BRAC) in 2005. The law authorizes the establishment
    of an independent Commission to review the Secretary of Defense
    recommendations for realigning and closing military installations. The deadline
    for the Secretary of Defense to submit recommendations to the independent
    Commission was May 16, 2005.

    In the Secretary of Defense “Transformation Through Base Realignment and
    Closure (BRAC 2005) Memorandum,” November 15, 2002, the Secretary of
    Defense established two senior groups to oversee and operate the BRAC 2005
    process. The two senior groups were the Infrastructure Executive Council (IEC)
    and the Infrastructure Steering Group (ISG). Distinct functional boundaries and
    levels of authority separated these two groups. The Secretary of Defense
    established and chartered the IEC and the ISG as the BRAC 2005 deliberative
    bodies responsible for leadership, direction, and guidance.

    Infrastructure Executive Council. The IEC, chaired by the Deputy Secretary of
    Defense and composed of the Secretaries of the Military Departments and their
    Chiefs of Services; the Chairman of the Joint Chiefs of Staff; and the Under
    Secretary of Defense for Acquisition, Technology, and Logistics, was the
    policymaking and oversight body for the entire BRAC 2005 process. The IEC
    was the approval authority for all BRAC recommendations to the Secretary of
    Defense.

    Infrastructure Steering Group. The ISG was chaired by the Under Secretary of
    Defense for Acquisition, Technology, and Logistics and composed of the Vice
    Chairman of the Joint Chiefs of Staff, the Military Department Assistant
    Secretaries for Installations and Environment, the Service Vice Chiefs, and the
    Deputy Under Secretary of Defense for Installations and Environment. The ISG
    oversaw the joint cross-service analyses of common business-oriented functions
    and ensured that process is integrated with the Military Department and Defense
    agency-specific analyses of all other functions. The ISG provided progress
    reports to the IEC. The Under Secretary of Defense for Acquisition, Technology,
    and Logistics had the authority and responsibility for issuing the operating
    policies and detailed direction necessary to conduct the BRAC 2005 analyses.

           •   “Transformation Through Base Realignment and Closure (BRAC
               2005) Policy Memorandum One—Policy, Responsibilities, and
               Procedures,”(Policy Memorandum One), April 16, 2003. Policy
               Memorandum One applies to the Military Departments and Defense
               agencies (DoD Components), and Joint Cross-Service Groups (JCSG)
               in developing the Secretary of Defense BRAC recommendations for
               submission to the BRAC 2005 Commission for its review. Policy
               Memorandum One describes policy, responsibilities, and procedures to
               be followed by participants in the BRAC process. Additionally,
               Appendix B of Policy Memorandum One is the Office of the Secretary


                                        1
    of Defense (OSD) internal control plan (ICP) for the BRAC 2005
    process, which the JCSGs used in order to ensure the accuracy of data
    collection and analysis.

•   “Policy Memorandum Two—BRAC 2005 Military Value
    Principles,” October 14, 2004. Policy Memorandum Two states that
    all recommendations made by the JCSGs and Military Departments
    will use military value as the determining factor. When making
    closure or realignment recommendations, JCSGs and Military
    Departments applied appropriate use of military judgment in order to
    meet all requirements by the Department. Military judgment is
    applied through the following principles: Recruit and Train; Quality of
    Life; Organize; Equip; Supply, Service, and Maintain; Deploy and
    Employ (operational); and Intelligence.

•   “Transformation Through Base Realignment and Closure (BRAC
    2005) Policy Memorandum Three—Selection Criterion 5,”
    December 7, 2004. Policy Memorandum Three describes how BRAC
    Selection Criterion 5 will be implemented during the BRAC process.
    JCSGs and Military Departments applied Selection Criterion 5 to their
    scenarios to estimate the projected costs and savings.

•   “Transformation Through Base Realignment and Closure (BRAC
    2005) Policy Memorandum Four—Selection Criteria 7 and 8,”
    December 7, 2004. Policy Memorandum Four provides guidance and
    clarification on the assessment of communities’ infrastructure and
    consideration of the environmental impacts of realignment and closure
    scenarios.

•   “Transformation Through Base Realignment and Closure (BRAC
    2005) Policy Memorandum Five—Homeland Defense,”
    December 10, 2004. Policy Memorandum Five gives guidance that
    establishes policies and procedures for the Military Departments and
    the JCSGs to ensure that the Department retains the necessary
    capabilities to support the homeland defense mission.
•   “Transformation Through Base Realignment and Closure (BRAC
    2005) Policy Memorandum Six—Selection Criterion 6,”
    December 20, 2004. Policy Memorandum Six provides guidance that
    establishes policies and procedures for the Military Departments and
    the JCSGs on how to use the Economic Impact Tool when applying
    BRAC Selection Criterion 6 to realignment and closure scenarios.




                             2
       •   “Transformation Through Base Realignment and Closure (BRAC
           2005) Policy Memorandum Seven—Surge,” January 4, 2005.
           Policy Memorandum Seven provides guidance for the Military
           Departments and JCSGs to meet the DoD statutory requirement to
           consider surge in realignment and closure scenarios.

       •   “Transformation Through Base Realignment and Closure (BRAC
           2005) Policy Memorandum Eight—Selection Criterion 8,”
           January 4, 2005. Policy Memorandum Eight provides guidance on
           how to identify the environmental impacts of a particular scenario in
           order to provide decision makers with the information they need to
           fully consider the impacts.

Joint Cross-Service Groups. A primary objective of BRAC 2005, in addition to
realigning base structure, was to examine and implement opportunities for greater
joint activity. Prior BRAC analyses considered all functions on a Service-by-
Service basis and, therefore, did not result in the joint examination of functions
that cross Services. The JCSGs addressed issues that affect common business-
oriented support functions, examined functions in the context of facilities, and
developed realignment and closure recommendations based on force structure
plans of the Armed Forces and on selection criteria. The JCSGs reported their
results through the ISG to the IEC. OSD established seven JCSGs–Education and
Training, Headquarters and Support Activities, Industrial, Intelligence, Medical,
Supply and Storage, and Technical. Each JCSG was responsible for overseeing
the joint cross-service analysis of functions within its area.

Medical Joint Cross-Service Group. The Under Secretary of Defense for
Acquisition, Technology, and Logistics, as the Chairman of the ISG, established
the Medical Joint Cross-Service Group (MJCSG), one of the seven JCSGs, on
March 15, 2003. The Surgeon General of the Air Force chaired the MJCSG.
Other principal members were the Deputy Assistant Secretary (Health Budgets
and Financial Policy), the Joint Staff Surgeon, the Surgeon General of the Navy,
the Deputy Surgeon General of the Army, and the Medical Officer of the Marine
Corps. Although MJCSG initially had five broadly divided functional areas, the
five functions were consolidated into three functional area working groups that
made recommendations to the principals: Education and Training; Healthcare
Services; and Research, Development, and Acquisition.

BRAC Data Calls. The BRAC 2005 data collection process, established for the
United States and its territories, was divided into the following data calls–
capacity analysis, supplemental capacity, military value, Cost of Base
Realignment Actions (COBRA), Joint Process Action Team Criterion
Number 7 (JPAT 7), and scenario specific. The supplemental capacity, military
value, COBRA, and JPAT 7 data calls were collectively known as the second data
call. Each JCSG developed data call questions related to capacity analysis and
military value to obtain information about the functions that they reviewed. Each
JCSG was required to issue a capacity analysis and military value analysis report.
Each data call had a specific purpose as follows.

       •   The capacity analysis data call gathered data on infrastructure, current
           workload, surge requirements, and maximum capacity.



                                     3
                    •    The supplemental capacity data call clarified inconsistent data
                         gathered with the initial capacity analysis data call.

                    •    The military value data call gathered data on mission requirements,
                         land and facilities, mobilization and contingency, and cost and
                         manpower.

                    •    The COBRA data call gathered data to develop costs, savings, and
                         payback (formerly known as return on investments) of proposed
                         realignment and closure actions.

                    •    The JPAT 7 data call gathered data to assess the community’s ability
                         to support additional forces, missions, and personnel associated with
                         individual scenarios.*

                    •    The scenario specific data call gathered data related to specific
                         scenario conditions for realignment or closure.

           COBRA Model. The Under Secretary of Defense for Acquisition, Technology,
           and Logistics stated in Policy Memorandum One that the COBRA model used in
           previous BRAC rounds would be updated, loaded with revised standard cost
           assumptions, and used by all DoD Components and JCSGs to analyze proposed
           realignment or closure actions. The Under Secretary stated that the Army would
           be the lead Service for this effort.

           Internal Control Plan and Standard Operating Procedures. The OSD ICP
           was issued in Policy Memorandum One. Appendix B of Policy Memorandum
           One is the ICP for all JCSGs. In addition, each JCSG prepared standard operating
           procedures (SOP) that further delineated controls related to the specific JCSG.

           MJCSG issued “Standard Operating Procedures for the Medical Joint Cross-
           Service Group (MJCSG) Base Realignment and Closure 2005,” April 23, 2004.
           The MJCSG SOP provides information related to controls necessary to safeguard
           BRAC 2005 deliberative data, documents, decisions, and recommendations for
           MJCSG. The MJCSG SOP states that all individuals working within or providing
           support to the BRAC 2005 process are required to sign a nondisclosure
           agreement. The MJCSG SOP provides guidance for MJCSG-specific data storage
           requirements, document control, and detailed data management procedures.

            Department of Defense Office of Inspector General Responsibility. Policy
           Memorandum One requires the Department of Defense Office of Inspector
           General (DoD OIG) to provide ICP development and implementation advice and
           to review the accuracy of BRAC data and the certification process. In addition,
           the memorandum requires DoD OIG personnel to assist the JCSGs and DoD
           Components as needed. This resulting report summarizes issues related to the
           MJCSG BRAC 2005 process.



*
    A scenario is a description of one or more potential realignment or closure actions identified for formal
    analysis by either a JCSG or a Military Department.



                                                        4
Objectives
    The overall objective of the audit was to evaluate the validity, integrity, and
    documentation of data used by MJCSG. Specifically, we determined whether
    MJCSG used certified data and created an adequate audit trail for capacity
    analysis and military value analysis. We determined whether MJCSG created an
    adequate audit trail for the input into the COBRA model.

    In addition, we evaluated whether MJCSG complied with the OSD ICP and the
    specific MJCSG SOP. This report is one in a series on JCSG data integrity and
    internal control processes for BRAC 2005. See Appendix A for a discussion of
    the audit scope and methodology, our review of the management control
    programs related to the objectives, and prior audit coverage. See Appendix B for
    a discussion of the review of COBRA model input for potential candidate
    recommendations.




                                        5
            Medical Joint Cross-Service Group Data
            Integrity and Internal Control Processes
            for BRAC 2005
            MJCSG used certified data and data from authoritative sources approved
            by the ISG and, following our visits, had an adequately documented audit
            trail for its capacity analysis. Also, sampling results indicated MJCSG
            used certified data or data from authoritative sources approved by the ISG
            for its military value analysis. Although the process is complex and may
            require assistance and computer proficiency to follow, following our
            visits, MJCSG had an adequate audit trail for its military value analysis.
            MJCSG also had an adequate audit trail for the input into the COBRA
            model. In addition, MJCSG generally complied with established internal
            control procedures from the OSD ICP and the MJCSG SOP. We believe
            the MJCSG BRAC 2005 process has generally been adequate and reliable.


Medical Joint Cross-Service Group Data Integrity and
 Documentation for BRAC 2005
     We considered the MJCSG BRAC 2005 data to be adequate and reliable. Further,
     MJCSG created an adequate audit trail for its capacity analysis, its military value
     analysis, and for input into the COBRA model. MJCSG developed and
     maintained an MJCSG production database to support its capacity analysis and
     military value analysis. The MJCSG production database contained certified data
     from the OSD BRAC Database; data from authoritative sources (American
     Medical Association, American Dental Association, American Hospital
     Association, and the U.S. Census Bureau) that were approved by the ISG on
     August 17, 2004; and certified data received directly from external sources such
     as medical treatment facilities and The Army Basing Study. At the MJCSG site,
     we compared capacity analysis and military value analysis data from the OSD
     BRAC Database and other certified sources with data in the MJCSG production
     database and with reports generated from the MJCSG production database. We
     also reviewed MJCSG documentation of its data management and analysis
     procedures. Finally, we compared data used in the COBRA model for
     19 potential candidate recommendations to certified data provided by the
     Services.

      Capacity Analysis. MJCSG used certified data or data from authoritative
     sources approved by the ISG and, following our initial visits, documented an
     adequate audit trail for its capacity analysis. The MJCSG BRAC data
     management team manager explained the data management procedures as
     follows. OSD transmitted a new version of the certified OSD BRAC Database to
     the MJCSG data management team manager each week. The data management
     team manager saved each new version of the OSD BRAC Database as a read-only
     file on his computer with a time and date stamp. He then linked the OSD BRAC
     Database file to the MJCSG production database and ran a macro that
     automatically updated and refreshed the production database, making it current


                                          6
with the new OSD BRAC Database. The data manager also imported certified
data received from other approved sources such as The Army Basing Study into
the production database. The data manager copied each new version of the
production database onto a compact disk and stored it in a locked safe and loaded
the new version onto the MJCSG analysts’ computers for their use. The MJCSG
production database was then queried to generate the Capacity Analysis Data Call
Report spreadsheets, military value analysis data, and other reports as needed.

To verify that MJCSG used certified data in the capacity analysis, we compared
certified data in the OSD BRAC Database extract dated August 11, 2004, with
100 percent of the data elements in the MJCSG Capacity Analysis Data Call
Report spreadsheets that were generated from that data. We found a small
number of data errors that were immediately corrected by the MJCSG data
management team manager. We found no data errors during later comparisons of
the OSD BRAC Database, the MJCSG production database, and the MJCSG
Capacity Analysis Data Call Report spreadsheets. Following our visits and the
issuance of a data validation memorandum on March 16, 2005, the MJCSG data
management team developed written documentation of its capacity analysis
procedures that provided an adequate audit trail for capacity analysis. (See
Appendix A for a detailed discussion of the capacity analysis validation.)

Military Value Analysis. In a draft of this report we stated that sample results
showed the estimated proportion of errors were within the acceptable percentage
criteria and indicated MJCSG used certified data or data from authoritative
sources approved by the ISG in its military value analysis for two of the three
functional areas (Education and Training, and Healthcare Services). The draft
report stated that the proportion of errors or insufficient supporting documentation
for the sample for the third functional area (Research, Development, and
Acquisition) exceeded the acceptable percentage criteria. Therefore, we could not
predict that the Research, Development, and Acquisition functional area primarily
used certified data in its military value analysis. Additionally, documentation
supporting the process needed improvement. Following the issuance of the draft
report, our reevaluation of the initial sample and validation of a second sample
showed the estimated proportion of errors were within the acceptable percentage
criteria and indicated MJCSG used certified data or data from authoritative
sources approved by the ISG in its military value analysis for the Research,
Development, and Acquisition functional area. Also, our review of
documentation submitted with the MJCSG BRAC recommendations indicated,
although the process is complex and may require assistance and computer
proficiency to follow, MJCSG had prepared an adequately documented audit trail
for its military value analysis.

The MJCSG military value analysis scoring plan was divided into three functional
areas with each area contributing a percentage of the overall military value score.
The three functional areas were scored individually and included an assessment of
the facility’s condition and ability to support the function. The three functional
area scores were then combined into a single military value score for each
medical facility. MJCSG was required to use certified data files from the OSD
BRAC Database, The Army Basing Study, or other approved sources.

        Initial Military Value Validation. To determine whether MJCSG used
certified data in its military value analysis, the DoD OIG Quantitative Methods


                                     7
Division randomly selected three samples of 208 data fields each (one sample for
each of the three functional areas) from tables in the MJCSG production database
dated March 22, 2005, that had been used in calculating the military value scores.
To predict with 95 percent confidence and a 3 percent tolerance rate, the sample
could contain no more than two errors. We compared the data in sample data
fields in the MJCSG production database with the data in the certified source files
with the following results. The Education and Training sample data and the
Healthcare Services sample data all matched the data in the source data files.
Therefore, we predicted that these two functional areas primarily used certified
data in their analyses. However, for the Research, Development, and Acquisition
functional area, we could match the data in only 186 of the 208 sample data fields
to certified source data files. As of April 22, 2005, the certified source files
supporting 18 of the remaining sample data fields were not available. Also, the
data in four of the sample data fields did not match data in the available certified
source data files. Because the number of errors exceeded the tolerance limit for
the sample, we initially could not predict that the data used by the Research,
Development, and Acquisition functional area in its military value analysis had an
error rate within the tolerance limit.

        Military Value Revalidation. Subsequent to the issuance of our draft
report, the MJCSG analysts provided a MJCSG production database dated May 5,
2005. The MJCSG analysts also provided additional and corrected certified
source data files. Using these files, we verified that the data in the certified data
files matched data in the MJCSG production database for 17 of the 18 sample
data elements that we had not validated during our initial review of the Research,
Development, and Acquisition sample. We also determined that three of the four
data elements initially reported as being incorrect in the MJCSG production
database were correct based on the additional or corrected certified data files.
Because our revalidation indicated that errors in the initial sample may have been
within the tolerance limit, the DoD OIG Quantitative Methods Division randomly
selected a second sample of 208 data fields in the MJCSG production database
from tables used in the Research, Development, and Acquisition functional area
military value analysis. We compared the data in the sample data fields in the
MJCSG production database dated May 5, 2005, with certified data in source
certified data files and found two discrepancies. Based on these results and the
reevaluation of the initial sample, we predicted that the Research, Development,
and Acquisition functional area’s military value analysis had an error rate within
the tolerance limit.

        Military Value Audit Trail. Following the issuance of our draft report,
the MJCSG data management team provided the written documentation of its
military value analysis procedures in an appendix to its BRAC 2005 final report.
This documentation was used to support the MJCSG recommendations. We
reviewed this documentation and were able to follow the process. Although the
military value analysis is a complex process that may require assistance and
computer proficiency to follow, we believe the documentation provides an
adequate audit trail. (See Appendix A for further details on the sampling plan and
analysis.)

COBRA Model Input. MJCSG created an adequate audit trail for its COBRA
model input and analysis of potential candidate recommendations. The Military
Services and JCSGs were required to use the COBRA model to analyze their


                                      8
     potential candidate recommendations. The Services each maintained a secure,
     controlled access, on-line data repository (BRAC portal) to facilitate the
     collection and dissemination of data to be used in the COBRA analyses.
     Authorized MJCSG analysts would access the BRAC portals to request data and
     to retrieve data posted by the Services. The MJCSG analysts then manually
     entered the data retrieved from the BRAC portals and data obtained from other
     sources into the COBRA model for analysis. The Services continuously updated
     their BRAC portals as additional data were collected or when existing data were
     corrected or modified.

     We reviewed the COBRA analyses of 19 potential candidate recommendations
     (Education and Training–4; Healthcare Services–11; and Research, Development,
     and Acquisition–4). The COBRA analyses were performed in March 2005 using
     COBRA model version 6.08. We did not review one additional potential
     candidate recommendation because the scenario was still evolving and all data
     had not been received as of April 15, 2005. Initially, not all supporting data were
     certified by the Services. However, in instances when uncertified data were used,
     it came from sources such as the Medical Expense Performance Reporting
     System, military construction planning factors, and Program Objective
     Memorandum data. When MJCSG made a change to a Service’s certified data or
     used another Service’s data or estimate, the changes or estimates were later
     certified by the Services and entered on their portals. After comparing the
     COBRA data with the available supporting documentation, we discussed any
     discrepancies and obtained additional documentation, clarification, or explanation
     from the functional area representatives. In addition, for 17 of the 19 potential
     candidate recommendations, we compared the data in the COBRA model input
     with the data on the Services BRAC portals as of April 2005. We found no
     significant errors in the data that would preclude any of the 19 potential candidate
     recommendations from continuing in the process. Further, MJCSG provided an
     adequate audit trail to determine the sources of the data used to support the
     potential candidate recommendations. (See Appendix B for further details on the
     individual potential candidate recommendations reviewed.)


Medical Joint Cross-Service Group Internal Control Processes
 for BRAC 2005
     MJCSG complied with the OSD ICP and the MJCSG SOP. MJCSG was in
     compliance with the OSD ICP in that MJCSG followed OSD ICP data collection
     and certification procedures, documented deliberative meetings, completed
     nondisclosure agreements, and marked and safeguarded BRAC data. MJCSG was
     in compliance with its SOP in that MJCSG had followed the MJCSG-specific
     data storage requirements, document controls, and data management procedures
     specified in the MJCSG SOP.

     Compliance with OSD ICP. MJCSG complied with the OSD ICP. The OSD
     ICP procedures required that:

            •   the BRAC 2005 process be clearly recorded;



                                          9
       •   information used in the analysis be certified by the appropriate
           authority for accuracy and completeness, and that the information be
           used consistently;

       •   data collected and used for analyses and decision making be obtained
           from appropriate sources;

       •   minutes be recorded for all deliberative meetings;

       •   oral briefings be captured in minutes;

       •   outside studies be brought to the attention of any BRAC group;

       •   technical experts submit information or data in writing with the
           required certification if the JCSG considered the data relevant;

       •   nondisclosure agreements be maintained for all participants in the
           BRAC process; and

       •   BRAC 2005 documents be marked as draft deliberative or sensitive.

We verified that MJCSG had followed the OSD ICP requirements by attending
MJCSG deliberative meetings, reviewing the data collection and certification
procedures during site visits, reviewing minutes of deliberative meetings,
reviewing nondisclosure agreements for MJCSG members and support personnel
during site visits and at deliberative meetings, reviewing MJCSG BRAC-related
documents for appropriate markings, and observing the procedures for
safeguarding BRAC data during site visits.

Compliance with MJCSG SOP. MJCSG fully complied with its SOP. All
individuals working in or supporting the BRAC process were required to sign
nondisclosure agreements. Data storage requirements and document control
measures were established to safeguard the BRAC 2005 deliberative data,
documents, decisions, and recommendations. The MJCSG SOP also provided
detailed data management procedures to maintain the integrity of the BRAC data
throughout the process. We verified that MJCSG adhered to these SOP
requirements during our site visits.




                                    10
Conclusion
    MJCSG used certified data or data from authoritative sources approved by the
    ISG and developed an adequate audit trail for its capacity analysis. Our review of
    sample data indicated MJCSG used certified data or data from authoritative
    sources approved by the ISG for its military value analysis. Although the process
    is complex and may require assistance and computer proficiency to follow, we
    believe the MJCSG developed an adequate audit trail for its military value
    analysis. Further, MJCSG created an adequate audit trail for the input into the
    COBRA model. Finally, MJCSG complied with established internal control
    procedures from the OSD ICP and MJCSG SOP. We believe the MJCSG BRAC
    2005 process has been adequate and reliable.




                                        11
Appendix A. Scope and Methodology
   We evaluated the validity, integrity, and documentation of data used by MJCSG.
   Specifically, we determined whether MJCSG had used certified data and had
   created an adequate audit trail for its capacity analysis and military value analysis.
   We also evaluated whether MJCSG had created an adequate audit trail for input
   into its COBRA analyses of potential candidate recommendations. Further, we
   evaluated whether MJCSG complied with the OSD ICP and the MJCSG SOP.

   BRAC 2005 Process Integrity. We evaluated the integrity of the MJCSG BRAC
   2005 process. Our evaluation included:

          •   ensuring methodologies were sufficiently documented, and

          •   comparing data used to make deliberative decisions to certified or
              authoritative data.

   From March 2003 through April 2005, we attended MJCSG meetings, reviewed
   the formal minutes and briefing charts of the meetings, and monitored the MJCSG
   BRAC Web site to verify that decisions made by MJCSG were adequately
   documented. We also observed MJCSG data management procedures and
   practices to ensure compliance with the MJCSG SOP.

   Capacity Analysis. To determine whether MJCSG used certified data in the
   capacity analysis, we compared data in the OSD BRAC Database dated August
   11, 2004; the corresponding MJCSG production database; and the MJCSG
   Capacity Analysis Data Call Report spreadsheets that were generated from this
   data. Each of the 13 sections of the MJCSG Capacity Analysis Data Call Report
   listed 232 Military activities for a potential of 3016 lines of data, with each line
   containing one or more data elements. However, all sections of the MJCSG
   Capacity Analysis Data Call Report did not apply to all 232 Military activities.
   We reviewed and compared every data element in the 13 sections of the MJCSG
   Capacity Analysis Data Call Report spreadsheets with data in the OSD BRAC
   Database. During this comparison, we found a small number of errors that were
   immediately corrected by the MJCSG data management team manager. We later
   performed a comparison of capacity analysis data in the OSD BRAC Database
   files dated October 6, 2004, with the corresponding MJCSG Capacity Analysis
   Data Call Report spreadsheets and found no discrepancies between the data sets.
   Further, we performed spot comparisons of capacity analysis data in OSD BRAC
   Database files dated November 4, 2004, and December 22, 2004, with
   corresponding MJCSG production database files and MJCSG Capacity Analysis
   Data Call Report spreadsheets and found no discrepancies in the data. To
   determine whether MJCSG created an adequate audit trail for its capacity
   analysis, we reviewed documents describing the MJCSG capacity analysis
   procedures.

   Military Value. To determine whether MJCSG used certified data for its military
   value analysis, the DoD OIG Quantitative Methods Division used a quantitative
   analysis sampling plan to randomly select samples of 208 data fields from each of
   the three functional area’s data tables in the MJCSG production database as


                                        12
follows: Education and Training–208 of 26,542; Healthcare Services–208 of
119,313; and Research, Development, and Acquisition–208 of 36,627. These
data fields were potentially used to calculate military value scores. To predict
with 95 percent confidence and a 3 percent tolerance rate, the sample could
contain no more than two errors. We compared the data in the sample data fields
from the MJCSG production database dated March 22, 2005, with data in the
certified extract of the OSD BRAC Database dated March 17, 2005, or with
certified data that had been received outside the OSD BRAC Database from other
approved sources, such as The Army Basing Study. Our initial comparisons
yielded the following results.

     •   The 208 sample data elements in the MJCSG production database for
         the Education and Training functional area matched certified data in the
         approved sources data files, thereby meeting our percentage criteria.

     •   The 208 sample data elements in the MJCSG production database for
         the Healthcare Services functional area matched certified data in the
         approved sources data files, thereby meeting our percentage criteria.

     •   Only 186 of the sample data elements in the MJCSG production
         database for the Research, Development, and Acquisition functional area
         could be matched to data in the certified source data files. The data in
         18 sample data fields could not be matched because the MJCSG had not
         provided the applicable certified source data files. Also, the data in four
         sample data fields did not match data in the certified source data files.
         This sample did not meet our criteria and, therefore, we could not
         predict that the data used by the Research, Development, and
         Acquisition functional area had an error rate within the tolerance limit.

Military Value Revalidation. Subsequent to the issuance of our draft report,
MJCSG provided a MJCSG production database dated May 5, 2005, and
additional and corrected certified source data files. Using these files, we verified
that the data in 17 of the 18 data fields that had not been validated matched data
in the newly obtained certified source data files. We also verified that three of
the four data elements in the MJCSG production database that we had initially
recorded as incorrect were correct based on the corrected certified source data
files. The DoD OIG Quantitative Methods Division randomly selected a second
sample of 208 data fields in the MJCSG production database from tables used in
the Research, Development, and Acquisition functional area military value
analysis. The 208 sample data elements in the MJCSG production database dated
May 5, 2005, matched certified data in the approved sources data files, with the
exception of two data elements, thereby meeting our percentage criteria.

 To determine whether MJCSG created an adequate audit trail for its military
value analysis, we reviewed documents describing the MJCSG military value
procedures throughout the process, discussed the procedures with the MJCSG
data analysts, and conducted analyses of data samples. Subsequent to the
issuance of the draft report, we reviewed the military value report that
accompanied the final MJCSG BRAC 2005 recommendations.




                                     13
          COBRA Model Input. We reviewed input for COBRA model version 6.08* for
          19 MJCSG potential candidate recommendations that had been approved by ISG
          as of April 15, 2005 [Education and Training–4; Healthcare Services–11; and
          Research, Development, and Acquisition–4]. Specifically, we reviewed
          electronic and hard copy documents, memorandums, estimates and assumptions,
          and verbal testimony provided by the Services and MJCSG that provided the
          basis for the data in the COBRA model. Additionally, from April 13 to April 15,
          2005, for 17 of the 19 potential candidate recommendations, we compared the
          data in the COBRA model input to data that were on the Services BRAC portals.
          We did not review one additional potential candidate recommendation (MED-
          002) because the scenario was still being revised and all data had not been
          received as of April 15, 2005. We did not evaluate recent revisions to some of
          these scenarios nor did we evaluate analyses performed using later versions of the
          COBRA model because none of these revisions or analyses had been completed
          as of April 15, 2005.

          We performed this audit from March 2003 through June 2005 in accordance with
          generally accepted government auditing standards.

          Use of Computer-Processed Data. To achieve the audit objectives, we relied on
          computer-processed data from the OSD BRAC Database and the MJCSG BRAC
          production database. We assessed the reliability of capacity analysis and military
          value data in the MJCSG BRAC production database by comparing it with data in
          the OSD BRAC Database. The data in the MJCSG production database generally
          matched data in the OSD BRAC Database. Assessing the reliability of the OSD
          BRAC Database was beyond the scope of our review.

          Use of Technical Assistance. Technical assistance was provided during the audit
          by operations research analysts in the Quantitative Methods Division of the
          Office of the Deputy Inspector General for Audit. The operations research
          analysts designed a random sampling methodology and analyzed MJCSG
          documentation for the military value analysis validation.

          Government Accountability Office High-Risk Areas. The Government
          Accountability Office has identified several high-risk areas in DoD. This report
          provides coverage of the Managing Federal Real Property and the DoD Approach
          to Business Transformation, DOD Support Infrastructure Management high-risk
          areas.


Management Control Program Review
          We evaluated the MJCSG management controls for documenting and
          safeguarding information associated with the BRAC 2005 data calls, as directed
          by the OSD ICP. Specifically, we reviewed nondisclosure agreements,
          deliberative meeting minutes, storage of BRAC data, and the supporting
          documentation for MJCSG BRAC data. Management controls were generally

*
    The COBRA model was updated throughout the BRAC 2005 process when standard factors changed or
    formulas were corrected. Version 6.08 was in use during March 2005.



                                                 14
     adequate as they applied to the audit objectives. The JCSGs were established as
     part of the BRAC process and therefore would not have management control
     programs outside of the BRAC process.

Prior Coverage
     During the last 5 years, the DoD Inspector General and the Army Audit Agency
     (AAA) issued four reports and memorandums concerning the Medical Joint
     Cross-Service Group involvement in the BRAC 2005 process and one report on
     the COBRA model.

DoD Inspector General
     DoD IG Memorandum, “Validation of the Base Realignment and Closure 2005
     Capacity and Military Value Data Used by the Medical Joint Cross-Service
     Group,” March 16, 2005

Army Audit Agency
     AAA Report No.A-2005-0169-ALT, “Validation of Army Responses for Joint
     Cross-Service Group Questions,” April 22, 2005

     AAA Report No.A-2005-0083-ALT, “Army Military Value Data: The Army
     Basing Study 2005,” December 21, 2004

     AAA Report No.A-2004-0544-IMT, “Cost of Base Realignment Action
     (COBRA) Model: The Army Basing Study,” September 30, 2004

     AAA Report No.A-2004-0441-IMT, “Validation of Army Installation Capacity
     Data for Base Realignment and Closure 2005, Medical Joint Cross-Service
     Group,” August 5, 2004




                                        15
Appendix B. Review of COBRA Model Input for
            Potential Candidate
            Recommendations
   We reviewed COBRA model input for 19 MJCSG potential candidate
   recommendations. Each of the potential candidate recommendations had been
   analyzed by MJCSG in March 2005 using COBRA model version 6.08. The
   following is a synopsis of our review of each potential candidate
   recommendation.

   Education and Training Potential Candidate Recommendations

   MED-005. MJCSG performed this COBRA analysis on March 11, 2005, using
   COBRA model version 6.08. MJCSG had support for the data used in the
   scenario. During our initial review we found three instances that were not clear
   as to the source of the data or needed more documentation to support a statement.
   However, following discussions with the MJCSG analysts, MJCSG provided
   adequate documentation to support the data and statements. MJCSG had adjusted
   some data based on military judgment; however, all of the adjustments were then
   certified by the Services. We verified that the data used in this analysis were also
   on the Services BRAC portals in April 2005.

   MED-012. MJCSG performed this COBRA analysis on March 7, 2005, using
   COBRA model version 6.08. MJCSG had support for the data used in the
   scenario. We found seven instances that were not clear as to source of the data or
   needed more documentation to support a statement. However, following
   discussions with MJCSG analysts, adequate documentation was provided to
   support the data and statements. MJCSG changed some data based on military
   judgment and obtained some data from the Program Objective Memorandum.
   Although the military judgment data and Program Objective Memorandum data
   were not certified at the time of use, the data were on the Services BRAC portals
   and were now certified by the Services. We verified that the data used in this
   analysis were on the Services BRAC portals in April 2005.

   MED-029. MJCSG performed this COBRA analysis on March 24, 2005, using
   COBRA model version 6.08. MJCSG had support for data used in the scenario.
   We found three instances that were not clear as to the source of the data.
   Following discussions with MJCSG analysts, adequate documentation was
   provided to support the data. MJCSG changed some data based on military
   judgment. However, all revised data has been certified by the Services. We did
   not verify that the data used in this scenario were on the Services BRAC portals.

   MED-030. MJCSG performed this COBRA analysis on March 11, 2005, using
   COBRA model version 6.08. MJCSG had support for the data used in the
   scenario. We found six instances that were not clear as to the source of the data
   or needed more documentation to support a statement. Following discussions
   with the MJCSG analysts, adequate documentation or explanations were
   provided. MJCSG revised some data elements based on military judgment.


                                        16
However, the Services had certified all of the revised data elements. We verified
that the data in this analysis were on the Services BRAC portals in April 2005.

Healthcare Services Potential Candidate Recommendations

MED-004-Army. MJCSG performed this COBRA analysis on March 9, 2005,
using COBRA model version 6.08. MJCSG had support for the data used in the
scenario. We found three instances that were not clear as to the source of the data
or needed more documentation to support the statement. Following discussions
with MJCSG analysts, adequate documentation was provided to support the data
and statements. MJCSG changed some data based on military judgment.
However, the Service had certified all of the revised data. We verified that the
data used in the analysis were on the Services BRAC portals in April 2005.

MED-004-Navy. MJCSG performed this COBRA analysis on March 9, 2005,
using COBRA model version 6.08. MJCSG had support for the data used in the
scenario. We found one instance that needed more documentation to support the
statement. Following discussions with MJCSG analysts, adequate documentation
was provided. MJCSG changed some data based on military judgment.
However, the revised data had been certified. We verified that the data used in
this analysis were on the Services BRAC portals in April 2005.

MED-004-Air Force. MJCSG performed this COBRA analysis on March 4,
2005, using COBRA model version 6.08. MJCSG had support for the data used
in the scenario. We found two instances that were not clear as to source of the
data or needed more documentation to support the statement. Following
discussions with MJCSG analysts, adequate documentation was provided to
support the data and statements. MJCSG changed some data based on military
judgment. However, all the revised data elements had been certified by the
Services. We verified that the data used in this analysis were on the Services
BRAC portals in April 2005.

MED-016. MJCSG performed this COBRA analysis on March 9, 2005, using
COBRA model version 6.08. MJCSG had support for the data used in the
scenario. We found 10 instances that were not clear as to the source of the data or
needed more documentation to support the statement. Following discussions with
MJCSG analysts, adequate documentation and clarifications were provided.
MJCSG changed some data based on military judgment. However, all the revised
data had been certified by the Services. We verified that the data used in this
analysis were on the Services BRAC portals in April 2005.

MED-018. MJCSG performed this COBRA analysis on March 9, 2005, using
COBRA model version 6.08. MJCSG had support for the data used in the
scenario. We found five instances that were not clear as to the source of the data
or needed more documentation to support the statement. Following discussions
with MJCSG analysts, adequate documentation was provided to support the data
and statements. MJCSG changed some data based on military judgment.
However, all the revised data had been certified by the Services. We verified that
the data used in this analysis were on the Services BRAC portals in April 2005.

MED-022. MJCSG performed this COBRA analysis on March 9, 2005, using
COBRA model version 6.08. MJCSG had support for the data used in the


                                    17
scenario. We found one instance that was not clear as to the support for the
numbers. Following discussions with MJCSG analysts, adequate support was
provided. MJCSG changed some data based on military judgment. However, all
the revised data had been certified by the Services. We verified that the data used
in this analysis were on the Services BRAC portals in April 2005.

MED-049. MJCSG performed this COBRA analysis on March 4, 2005, using
COBRA model version 6.08. MJCSG had support for the data used in the
scenario. We found one instance that needed more documentation to support the
statement. Following discussions with MJCSG analysts, adequate documentation
was provided. MJCSG changed some data based on military judgment. However,
all the revised data had been certified by the Services. We verified that the data
used in this analysis were on the Services BRAC portals in April 2005.

MED-050. MJCSG performed this COBRA analysis on March 9, 2005, using
COBRA model version 6.08. MJCSG had support for the data used in the
scenario. We found one instance that needed more documentation to support the
statement. Following discussions with MJCSG analysts, adequate documentation
was provided to support the statement. MJCSG changed some data based on
military judgment. However, the revised data had been certified by the Services.
We verified that the data used in this analysis were on the Services BRAC portals
in April 2005.

MED-052. MJCSG performed this COBRA analysis on March 9, 2005, using
COBRA model version 6.08. MJCSG had support for the data used in the
scenario. We found no instances where the data or statements were not clear as to
the source or needed additional documentation. MJCSG changed some data
based on military judgment. However, all revised data had been certified by the
Services. We verified that the data used in this analysis were on the Services
BRAC portals in April 2005.

MED-053. MJCSG performed this COBRA analysis on March 9, 2005, using
COBRA model version 6.08. MJCSG had support for the data used in the
scenario. We found one instance of a footnote that was not clear. Following
discussions with MJCSG analysts, the analyst agreed to clarify the footnote.
MJCSG changed some data based on military judgment. However, all the revised
data had been certified by the Services. We verified that the data used in this
analysis were on the Services BRAC portals in April 2005.

MED-054. MJCSG performed this COBRA analysis on March 9, 2005, using
COBRA model version 6.08. MJCSG had support for the data used in the
scenario. We found no instances where the data was not clear as to its source or
more documentation was needed. MJCSG changed some data based on military
judgment. However, all the revised data had been certified by the Services. We
verified that the data used in this analysis were on the Services BRAC portals in
2005.




                                    18
Research, Development, and Acquisition Potential Candidate
Recommendations

MED-024. MJCSG performed this COBRA analysis on March 7, 2005, using
COBRA model version 6.08. MJCSG had support for the data used in the
scenario. The assumptions that the scenario would result in a 10 percent
reduction in affected personnel at Fort Sam Houston and a 15 percent reduction in
affected personnel at Walter Reed were not initially explained or supported. In
response to our review, the MJCSG workgroup documented a rationale for this
situation based on the type of personnel being moved and the types of existing
facilities involved. MJCSG changed some data based on military judgment.
However, all of the revised data had been certified by the Services. We verified
that the data used in this analysis were on the Services BRAC portals in April
2005.

MED-025. MJCSG performed this COBRA analysis on March 7, 2005, using
COBRA model version 6.08. MJCSG had support for the data used in the
scenario. We found one instance that was not clear as to the source of the
numbers. Following discussions with MJCSG analysts, adequate documentation
and clarification were provided. MJCSG changed some data based on military
judgment. However, all of the revised data had been certified by the Services.
We did not verify that data used in this analysis were on the Services BRAC
portals.

MED-028. MJCSG performed this COBRA analysis on March 7, 2005, using
COBRA model version 6.08. MJCSG had support for the data used in the
scenario. We found one instance that was not clear as to the source of the
numbers, but the issue was resolved with adequate documentation. MJCSG
changed some data based on military judgment. However, all of the revised data
had been certified by the Services. We verified that data used in this analysis
were on the Services BRAC portals in April 2005.

MED-057. MJCSG performed this COBRA analysis on March 10, 2005, using
COBRA model version 6.08. MJCSG had support for the data used in the
scenario. We found one error in the data that was corrected and supported with
adequate documentation. MJCSG changed some data based on military
judgment. However, all of the revised data elements had been certified by the
Services. We verified that the data used in this analysis were on the Services
BRAC portals in April 2005.




                                   19
Appendix C. Report Distribution
Office of the Secretary of Defense
     Director, Base Realignment and Closure (Installations and Environment)

     Chair, Medical Joint Cross-Service Group


Non-Defense Federal Organizations
     Government Accountability Office




                                        20
Medical Joint Cross-Service Group Comments
                                             Final Report
                                              Reference




                                             Attachments
                                             omitted




                     21
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Readiness and Logistics Support prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Michael A. Joseph
James A. O’Connell
Robert T. Briggs
James F. Degaraff
Danny O. Hatten
William F. Lanyi
Lusk F. Penn
Meredith H. Johnson
